Report No. D-2011-116                 September 30, 2011




      American Recovery and Reinvestment Act Wind
       Turbine Projects at Long-Range Radar Sites
         in Alaska Were Not Adequately Planned
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-9837) or fax (703) 604-8932

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFCESA                        Air Force Civil Engineer Support Agency
CES                           Civil Engineer Squadron
DUSD (I&E)                    Deputy Under Secretary of Defense
                                (Installations and Environment)
ECIP                          Energy Conservation Investment Program
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
LCC                           Life-Cycle Cost
LRRS                          Long-Range Radar Site
OMB                           Office of Management and Budget
SIR                           Savings-to-Investment Ratio
TAFS                          Treasury Appropriation Fund Symbol
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202--4704



                                                                      September 30, 2011


MEMORANDUM FOR DEPUTY UNDER SECRETAR Y OF DEFENSE
                 (INSTALLATIONS AND ENVIRONMENT)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: American Recovery and Reinvestment Act Wind Turbine Projects at
         Long-Range Radar Sites in Alaska Were Not Adequately Planned
         (Report No. D-20 11-116)

We are providing this repmi for review and comment. We determined that 611 th Civil
Engineer Squadron personnel did not ensure that the tlu'ee wind turbine projects, each
valued at $4.7 million, were adequately platUled and suppmied. We performed this audit
in response to the requirements ofPitblic Law 111-5, "American Recovery and
Reinvestment Act of2009," February 17, 2009. We considered management comments
on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that reconunendations be resolved promptly. The
Department of the Air Force comments were patiially responsive. As a result of Air
Force c01lUllents, we revised Reconunendation 2. The Deputy Under Secretaty of
Defense (Installations and Environment), did not C01lUllent on a draft of this report. We
request the Deputy Under Secretary of Defense (Installations and Environment) comment
on revised Recommendation 2 by October 31 , 2011.

If possible, please send a .pdf file containing your comments to audyorktown@dodig.mil.
Copies of the management conunents must contain the actual signature of the authorizing
official for your organization. We are unable to accept the /Signed/ symbol in place of
the actual signature. If you arrange to send classified comments electronically, you must
send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).



                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2011-116 (Project No. D2009-D000LF-0245.003)                                       September 30, 2011

                    Results in Brief: American Recovery and
                    Reinvestment Act Wind Turbine Projects at
                    Long-Range Radar Sites in Alaska Were Not
                    Adequately Planned
                                                               incorrect appropriation to award the task order.
What We Did                                                    Finally, the contractor reported the required
                                                               information for Recovery Act recipients; however, the
Our objective was to review the planning, funding,             contractor originally reported an incorrect Treasury
initial project execution, and tracking and reporting of       Appropriation Fund Symbol to the www.recovery.gov
the Energy Conservation Investment Program wind                Web site. As a result of our review, officials at the
turbine projects, each valued at $4.7 million, at the          AFCESA took action to correct those errors.
long-range radar sites at Cape Lisburne, Cape
Newenham, and Cape Romanzof, Alaska. We
determined whether Air Force personnel complied                What We Recommend
with the Act’s requirements, Office of Management              We recommend that the Air Force prepare supporting
and Budget (OMB) Memorandum M-09-10, “Initial                  documentation, including the results of the 1-year
Implementing Guidance for the American Recovery                wind studies, and revalidate the discounted payback
and Reinvestment Act of 2009,” February 18, 2009,              periods and SIRs on the Life-Cycle Cost (LCC)
and subsequent related guidance.                               analyses. We recommend that the DUSD (I&E)
                                                               cancel the wind turbine project at Cape Newenham
What We Found                                                  and work directly with the Air Force to validate the
                                                               LCC analyses for the wind turbine projects at Cape
Personnel at the 611th Civil Engineer Squadron (CES)           Lisburne and Cape Romanzof. We also recommend
did not ensure the wind turbine projects were properly         that the DUSD (I&E) determine the best course of
planned and supported to meet the minimum savings-             action for the construction of the Cape Lisburne and
to-investment ratio (SIR) and payback criteria because         Cape Romanzof wind turbine projects; develop plans
of multiple turnovers in project managers and a loss of        to use the savings resulting from the termination of the
project files. Additionally, before the projects were          project at Cape Newenham, and develop plans to
selected for American Recovery and Reinvestment                address cost overruns for the projects at Cape
Act of 2009, (Recovery Act) funding, personnel at the          Lisburne and Cape Romanzof.
611th CES did not first ensure that wind studies had
been completed and therefore, that the projects were
shovel-ready. * As a result, DoD cannot ensure that            Management Comments and
the projects are viable, that the Deputy Under                 Our Response
Secretary of Defense (Installations and Environment)
                                                               The Department of the Air Force provided updated
[DUSD (I&E)] appropriately selected the projects for
                                                               support for the projects and will recommend that the
Recovery Act funding, and that Recovery Act funds
                                                               DUSD (I&E), cancel the project at Cape Newenham
were appropriately used.
                                                               and continue with the projects at Cape Lisburne and
Air Force personnel distributed funds to the Air Force         Cape Romanzof. We agree with the recommendation
Civil Engineer Support Agency (AFCESA) for the                 to cancel the project at Cape Newenham; however,
wind turbine projects in a timely manner, and the              documentation provided by the Air Force does not
funding authorization documents properly identified a          fully support completing the wind turbine projects at
Recovery Act designation. Although contracting                 Cape Lisburne and Cape Romanzof. As a result, we
personnel at the AFCESA ensured that contracting               revised Recommendation 2 to elevate these issues to
actions for the wind turbine projects generally were           the DUSD (I&E). The DUSD (I&E), did not
executed appropriately, they originally cited an               comment on the draft of this report. We request that
                                                               the DUSD (I&E) provide comments by October 31,
                                                               2011. Please see the recommendations table on
*
    Planning for the project was already completed.            page ii.
                                                           i
Report No. D-2011-116 (Project No. D2009-D000LF-0245.003)         September 30, 2011




Recommendations Table
         Management                  Recommendations        No Additional Comments
                                   Requiring Comment              Required
Deputy Under Secretary of       2.a, 2.b, 2.c, 2.d
Defense (Installations and
Environment)
Commander, 611th Civil                                      1
Engineer Squadron

Please provide comments by October 31, 2011.




                                          ii
Table of Contents

Introduction                                                           1

      Objectives                                                       1
      Background                                                       1
      Review of Internal Controls                                      2

Audit Results for Recovery Act Wind Turbine Projects                   3

      Background on Planning for Recovery Act Wind Turbine Projects   4
      Recovery Act Wind Turbine Projects Not Adequately Planned       5
      Recovery Act Funds Properly Distributed                         8
      Initial Project Execution Generally Adequate; However,
        Contracting Action Originally Cited Incorrect Appropriation    8
      Contractor Reported Required Information, but Cited Incorrect
        Treasury Appropriation Fund Symbol                             9
      Conclusion                                                       9
      Recommendations, Management Comments, and Our Response          10

Appendix. Scope and Methodology                                       13

      Use of Computer-Processed Data                                  13
      Use of Technical Assistance                                     14
      Prior Coverage                                                  14

Management Comments

      Department of the Air Force                                     15
Introduction
Objectives
Our overall objective was to evaluate DoD’s implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of 2009,” (Recovery Act), February 17,
2009. Specifically, we reviewed the planning, funding, initial project execution, and
tracking and reporting of the wind turbine projects, each valued at $4.7 million, located at
long-range radar site(s) (LRRS) at Cape Lisburne, Cape Newenham, and Cape
Romanzof, Alaska. We determined whether Air Force personnel complied with the Act’s
requirements, Office of Management and Budget (OMB) Memorandum M-09-10, “Initial
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
February 18, 2009, and subsequent related guidance.

The Recovery Act and OMB guidance require projects to be monitored and reviewed.
For the purposes of this audit, we grouped these requirements into the following four
phases: (1) planning, (2) funding, (3) initial project execution, and (4) tracking and
reporting. See the appendix for a discussion of our scope and methodology.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

Office of the Secretary of Defense memorandum, “Department of Defense Report to
Congress on the Military Construction (MILCON) and Facilities Sustainment,
Restoration, and Modernization (FSRM) Expenditure Plans for the American Recovery
and Reinvestment Act of 2009,” February 23, 2009, reinforces the Act’s emphasis on
swiftly expending funds and states that preference should be given to projects “that can
be started and completed expeditiously, including a goal of using at least 50 percent of
the funds for activities that can be initiated no later than 120 days after the date of the
enactment of this Act.” Additionally, the “American Recovery and Reinvestment Act of
2009, Department of Defense Energy Conservation Investment Program Plan,”
May 15, 2009 (updated June 2010), reinforces the Department’s intent to swiftly expend
funds by discussing the planning and design phase of the Recovery Act and selection of
projects that were designated as “shovel-ready,” hence, planning for the project was
already completed.




                                             1
DoD received approximately $7.16 billion 1 in Recovery Act funds for projects that
support the Act’s purposes. In March 2009, DoD released an expenditure plan for the
Recovery Act, which listed DoD projects that would receive Recovery Act funds. OMB
Memorandum M-09-10 required DoD to develop plans for DoD programs. Included
among those programs was the Energy Conservation Investment Program (ECIP). The
DoD ECIP Plan identifies projects valued at $120 million and funded through the
“Military Construction – Recovery Act, Defense-Wide” appropriation. DoD personnel
allocated $17.2 million for Air Force Recovery Act ECIP projects. The Deputy Under
Secretary of Defense (Installations and Environment) [DUSD (I&E)] centrally controls
ECIP funding allocations on a project-by-project basis. Of the $17.2 million, the Air
Force received $14.1 million for three wind turbine projects at Cape Lisburne LRRS,
Cape Newenham LRRS, and Cape Romanzof LRRS, each valued at $4.7 million.

The “Department of Defense Energy Manager’s Handbook,” August 25, 2005, defines a
savings-to-investment ratio (SIR) as a measure of a project’s economic performance.
The SIR, a benefit-to-cost ratio in which the benefits are primarily savings, expresses the
relationship between the present value of the savings over the study period to the present
value of the investment costs. The SIR is a useful means of ranking independent projects
to guide allocations for limited investment funding. According to the handbook, if a
project’s SIR is 1.0 or higher, the project is cost-effective.

Air Force Civil Engineer Support Agency
Air Force Civil Engineer Support Agency (AFCESA) provides professional readiness,
energy and operations support, tools, and practices to maximize Air Force civil engineer
capabilities in base and contingency operations. These services included programming,
planning, and design of energy projects; conducting technical evaluations of the
proposals received after solicitation; and awarding the contracts for Air Force ECIP
projects.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. We identified an internal control
weakness in the administration of the three wind turbine projects as defined by DoD
Instruction 5010.40. Specifically, personnel at the 611th Civil Engineer Squadron (CES)
did not provide adequate internal controls over the planning for the three wind turbine
projects. We discuss these issues in detail in the Audit Results section of this report. We
will provide a copy of the report to the senior officials responsible for internal controls at
the Office of the DUSD (I&E) and the Air Force.




1
  DoD originally received about $7.42 billion; however, Public Law 111-226, Title III, “Rescissions,”
rescinded $260.5 million on August 10, 2010. The $7.16 billion does not include $4.6 billion for the U.S.
Army Corps of Engineers Recovery Act civil works projects.


                                                    2
Audit Results for Recovery Act Wind Turbine
Projects
Personnel at the 611th CES did not ensure that the three wind turbine projects at Cape
Lisburne LRRS, Cape Newenham LRRS, and Cape Romanzof LRRS were adequately
planned.

       •   Personnel at the 611th CES did not provide documentation to support the
           DD Forms 1391, “Military Construction Project Data” or the Life-Cycle Cost
           (LCC) analyses calculations because of multiple turnovers in project managers
           and a file server migration that resulted in the loss of several project files.
           Although the DD Forms 1391 and LCC analyses showed that SIRs and payback
           periods 2 were potentially within DoD guidance, a technical evaluation performed
           by AFCESA personnel determined that each proposal’s SIR and payback periods
           did not meet DoD guidance, and the three wind turbine projects may not be
           cost-effective.

       •   Before DUSD (I&E) selected the wind turbine projects for Recovery Act funding,
           personnel at the 611th CES did not first ensure the wind studies had been
           completed and therefore, that the projects were shovel-ready.

As a result, DoD cannot ensure that the three wind turbine projects are viable, that
DUSD (I&E) personnel appropriately selected the projects for Recovery Act funding, and
that Recovery Act funds were appropriately used.

Air Force personnel distributed funds to AFCESA for the three wind turbine projects in a
timely manner, and the funding authorization documents properly identified a Recovery
Act designation. Although contracting personnel at AFCESA ensured that contracting
actions for the three wind turbine projects generally were executed appropriately, they
originally cited an incorrect appropriation in the task order. Finally, the contractor
reported the required recipient Recovery Act information; however, the contractor did not
report the correct Treasury Appropriation Fund Symbol (TAFS) to the
www.recovery.gov Web site. As a result of our review, officials at AFCESA took action
to correct the errors in the appropriation and recipient reporting. DoD now has
reasonable assurance the use of Recovery Act funds was clear and transparent to the
public.




2
    The amount of time it will take to recover the initial investment in energy savings.


                                                        3
Background on Planning for Recovery Act Wind Turbine
Projects
            Figure. Prototype Wind Turbine at Tin City Long-Range Radar Site




Tin City Long-Range Radar Site Selected as Test Site
Idaho National Laboratory prepared a report for Pacific Air Forces to evaluate the
possibility of wind power application at four LRRSs in Alaska. An assessment team of
Air Force and contractor personnel conducted site visits in October and December of
2002. DoD personnel selected Tin City as the test site and provided funding to create a
prototype facility. Air Force personnel planned on monitoring the test site to determine
the energy savings that can be realized in power production systems at remote sites. In
July 2006 contracting personnel at Elmendorf Air Force Base drafted a contract with a
$2.0 million option to construct the Tin City wind turbine. The Air Force exercised the
option in June 2007, and according to 611th CES personnel, contractors completed
construction in October 2008. However, the wind turbine was not operational as of
July 29, 2011.

Test Site Wind Turbine Project Continues to Experience Delays
Following are issues identified from the wind turbine project at the Tin City LRRS.

   •   Completing a wind study would have
       provided 611th CES personnel the              Because 611th CES personnel did
       information necessary to determine the         not complete a wind study at Tin
       most advantageous location at which to            City before construction, the
       build the turbine. Because 611th CES          turbine is located in an area with
       personnel did not complete a wind study         turbulent winds, and therefore,
       at Tin City before construction, the                according to 611th CES
       turbine is located in an area with               personnel, produces sporadic,
       turbulent winds, and therefore, according               unusable power.
       to 611th CES personnel, produces
       sporadic, unusable power.


                                            4
   •   Because the wind turbine was not yet operational, in August 2009, contracting
       personnel at Elmendorf Air Force Base awarded a contract modification valued at
       $485,000 to further fund and complete the project. This funding covered the costs
       of a study for correcting power integration issues and implementing the
       corrections. In September 2010, the contract period of performance was extended
       to December 31, 2010, because of Government delays on the design approval that
       addressed the power integration issues.

   •   Finally, high wind testing needed to be completed before the 611th CES and the
       contractor could commission the wind tower. Because of erratic wind conditions,
       the contractor had not completed tests as of February 11, 2011.

As of July 29, 2011, the wind turbine was still not operational and continued to incur
costs. DoD cannot quantify actual cost savings generated from the wind turbine until the
contractor completes all modifications to power production and 611th CES personnel
measure overall operational performance.

Recovery Act Wind Turbine Projects Not Adequately
Planned
Personnel at the 611th CES did not ensure that the three wind turbine projects were
adequately planned to meet the minimum SIR and payback criteria defined in DoD
guidance, and the three wind turbine projects may not be cost-effective. Additionally,
personnel at the 611th CES did not ensure the wind turbine projects were shovel-ready
before DUSD (I&E) personnel selected the projects for Recovery Act funding.

No Documentation Supporting Project Costs, and SIR and
Payback Periods Are Potentially Outside Criteria Guidelines
611th CES personnel provided no documentation to support the DD Forms 1391 or the
potential investment costs and energy and non-energy savings on the LCC analyses for
the three wind turbine projects. Although the DD Forms 1391 and LCC analyses showed
that SIRs and payback periods potentially met DoD guidance, a technical evaluation
performed by AFCESA personnel determined that each proposal’s SIR and payback
periods did not meet DoD guidance, and the three wind turbine projects may not be cost-
effective.
Lack of Documentation to Support Calculations on DD Forms 1391
According to Office of the Assistant Secretary of Defense (Production and Logistics)
“Energy Conservation Investment Program Guidance,” March 17, 1993, project
submittals will include copies of the LCC analyses with supporting documentation
showing basic assumptions made in arriving at projected savings. The guidance also
states that Military Departments should maintain current, auditable documentation on the
execution status and the projected and realized savings for each ECIP project and should
revalidate all projects prior to advertising to ensure contemplated benefits will still
accrue.



                                            5
Personnel at the 611th CES stated they could not provide documented cost support
because of multiple turnovers in project managers and a file server migration resulting in
the loss of several project files. In addition, 611th CES personnel stated that part of the
costing methodology they used to create the estimates for the wind turbine projects
included the costs incurred in building the wind turbine in Tin City. However, they were
still unable to provide actual calculations and the supporting documentation.

Part of AFCESA’s mission is to provide technical expertise in programming, planning,
and design of energy projects. The audit team discussed the DD Forms 1391 and the lack
of supporting documentation with the Professional Engineers at AFCESA. AFCESA
Professional Engineers offered their opinions and assumptions on the projects. They
maintained that a Professional Engineer’s opinion should be enough to support the
project costs submitted by the 611th CES. DUSD (I&E) personnel stated that they do
consider a Professional Engineer’s opinion valid support for the cost estimates, but only
if the opinion is supported by research on elements of the costs and then documented and
included with the DD Forms 1391. Furthermore, because the wind turbine at Tin City
remained non-operational and was still incurring costs as of July 29, 2011, the DD Forms
1391 prepared by 611th CES personnel may be unreliable as a basis for projected savings.
Without adequate documentation of assumptions made; detailed breakouts of
construction costs, energy and non-energy savings; and evidence of research for cost
support, DoD cannot ensure that payback periods and SIR calculations are accurate and
reliable on the DD Forms 1391 or the LCC analyses for the three wind turbine projects,
or that DUSD (I&E) personnel appropriately selected the projects for Recovery Act
funding.

SIR and Payback Periods on the Technical Evaluation Less Favorable
Than Those on DD Forms 1391
Title 10, Code of Federal Regulations, Part 436, and the DoD Energy Manager’s
Handbook state that projects are cost-effective when the SIR is estimated to be 1.0 or
higher. Moreover, the DoD ECIP Plan indicates that ECIP projects are focused on
improving the energy efficiency of existing DoD facilities and creating new energy
generation sources on military installations in a cost-effective manner.

The Office of the Assistant Secretary of Defense (Production and Logistics), “Energy
Conservation Investment Program Guidance,” March 17, 1993, also states “projects must
have a SIR greater than 1.25 and a discounted 3 payback period of 10 years or less.”
Although the DD Forms 1391 and LCC analyses cited SIRs of 1.57 and 1.59
respectively, with project payback periods of 9 years each, 611th CES did not adequately
support the DD Forms 1391 and the SIR and payback periods are potentially inaccurate.
However, as part of the technical evaluation, a Professional Engineer working for
AFCESA used cost data from the contractors’ proposals to recalculate SIRs and payback
periods. These calculations resulted in project payback beyond the economic life of the
wind turbines and SIRs of less than 1.0.


3
 Similar to simple payback in expressing results in time to recover investment costs; however, savings are
discounted to their present value based on the discount rate.


                                                    6
Even though the SIRs and payback periods on the technical evaluation were outside the
designated criteria guidelines, AFCESA contracting personnel awarded the task order for
                                          all three wind turbine projects. Without proper
   Even though the SIRs and payback       planning of the Recovery Act project,
   periods on the technical evaluation    DUSD (I&E) personnel may not have
   were outside the designated criteria   appropriately selected the projects for
    guidelines, AFCESA contracting        Recovery Act funding. Consequently, DoD
  personnel awarded the task order for cannot ensure the three wind turbine projects
     all three wind turbine projects.     were an appropriate use of Recovery Act
                                          funds, and AFCESA awarding the projects
may not be in compliance with the intent of Federal regulation, DoD guidance, and the
Recovery Act’s requirement for prudent management of funds.

We brought these issues to the attention of AFCESA and 611th CES personnel, and on
August 12, 2010, they stated that they had recently revalidated the SIRs and project
payback periods for the three wind turbine projects. They also stated that the revalidated
results were more favorable than those of the original DD Forms 1391 and agreed to
provide the audit team documentation for, and results of, the revalidation. However, they
never provided the documentation. Accordingly, our conclusions are based on the
documentation available in 2009.

Projects Not Shovel-Ready
Personnel at the 611th CES did not first ensure the wind studies had been completed and
therefore, that the projects were shovel-ready before DUSD (I&E) personnel selected the
projects for Recovery Act funding. According to the DoD ECIP Plan, planning for the
three wind turbine projects should have been completed, which would ensure that the
projects were shovel-ready. Additionally, according to an August 11, 2009, Pacific
Northwest National Laboratory study, wind studies can confirm whether sufficient and
consistent winds are available at sites for wind power production. The report further
states that when determining site locations, “measuring the actual wind resource at the
site for a year and correlating the data to data from a longer term reference station in the
area will help confirm the viability of the site for wind power production.” Moreover,
data from wind studies is helpful in calculating the expected overall energy savings, thus
potentially impacting the SIR and payback period calculations for the three wind turbine
projects.

At the time of our site visit, the Statement of Work required an 8-month wind study.
However, lessons learned from the Tin City project demonstrated a clear need for a
1-year wind study before project implementation to determine the best physical location
for the wind turbine tower. Because of our review and before awarding the contract,
personnel at the 611th CES requested, and AFCESA contracting personnel revised, the
Statement of Work from an 8-month to a 1-year wind study at each LRRS.

Although there is no requirement to complete wind studies before submitting
DD Forms 1391, personnel with the DUSD (I&E) and the Air Force ECIP Manager



                                             7
stated that they had expected wind studies to have been completed before they received
the DD Forms 1391 with support documentation and that they were unaware this was not
the case for the three wind turbine projects. In March 2010, DUSD (I&E) cancelled an
Army Recovery Act wind turbine project at Fort Wainwright, Alaska, from the Recovery
Act program because of the lack of planning and lack of wind study completion. The
reprogramming action cited that the project could not be awarded because wind tests
would not be completed in a timely manner. DUSD (I&E) cancelled the project because
of unavoidable execution delays—avoiding unnecessary execution delays is one of the
Recovery Act accountability objectives. The reprogramming action also cited that the
Army is using the funds to award two new projects that comply with the intent of the
Recovery Act. The 611th CES did not provide sufficient information to DUSD (I&E) to
ensure that the three wind turbine projects were shovel-ready, the projects were viable,
and that Recovery Act funds were appropriately used.

Recovery Act Funds Properly Distributed
Air Force personnel distributed funds to AFCESA for the three wind turbine projects in a
timely manner, and the funding authorization documents properly identified a Recovery
Act designation. Funding documents cited a TAFS of 97 0501, “Military Construction-
Recovery Act, Defense-Wide” appropriation, and the amount of funds received agreed
with the project estimates of $4.7 million for each wind turbine as stated in the DoD
ECIP Plan. Funding documents showed that Air Force personnel transferred Recovery
Act funds to AFCESA on September 23, 2009, in time for AFCESA contracting
personnel to award the task order on September 26, 2009.

Initial Project Execution Generally Adequate; However,
Contracting Action Originally Cited Incorrect
Appropriation
Contracting personnel at AFCESA ensured that the contracting actions were generally
executed appropriately; however, contracting personnel at AFCESA did not cite the
correct appropriation on the task order. As required by OMB Memorandum M-09-10,
contracting personnel at AFCESA posted contract pre-solicitations for the three wind
turbine projects to the Federal Business Opportunities (FBO) Web site and appropriately
posted three separate pre-solicitation announcements. They also properly identified the
three wind turbine projects as “Recovery” and included the appropriate “For Information
Purposes Only” statement in the synopsis.

On September 26, 2009, contracting personnel at AFCESA awarded the three wind
turbine projects competitively on task order 0009 under contract FA-3002-08-D-0005 at a
firm-fixed-price to CH2M Hill Constructors, Inc., (CH2M Hill). AFCESA advertised the
projects to contractors eligible to receive awards under the Sustainment, Restoration, and
Modernization Acquisition Task Order Contract. According to AFCESA personnel, this
program includes 20 contractors that fall under classifications such as 8(a), HUBZone,
and Service-Disabled Veteran-Owned Small Businesses. Contracting personnel at
AFCESA awarded the three wind turbine projects within the estimated project costs in
the DoD ECIP Plan. CH2M Hill was properly registered in the Central Contractor



                                            8
Registration database and was not listed in the Excluded Parties List System.
Additionally, contracting personnel at AFCESA posted the three Recovery Act award
notices and identified the three wind turbine projects as “Recovery.” They also included
all required Recovery Act Federal Acquisition Regulation (FAR) clauses in a contract
modification.

However, when they awarded the task order, contracting personnel at AFCESA
incorrectly cited 979 DF9 1576 as the appropriation, instead of “Military Construction-
Recovery Act, Defense-Wide” appropriation 97 0501. As a result of our review,
AFCESA contracting personnel modified the contract to correct the appropriation. DoD
now has reasonable assurance that the use of Recovery Act funds was clear and
transparent to the public.

Contractor Reported Required Information, but Cited
Incorrect Treasury Appropriation Fund Symbol
The contractor, CH2M Hill, reported the required recipient Recovery Act information.
The contractor reported the number of jobs, a description of quarterly project activities,
and the total dollar value for the task order award to www.recovery.gov as required by
FAR 52.204-11. However, the contractor used an incorrect TAFS in the report.
CH2M Hill incorrectly reported the TAFS code as 57 3307, “Military Construction-
Recovery Act, Air Force” instead of 97 0501, “Military Construction-Recovery Act,
Defense-Wide.” As a result of our review, AFCESA contracting personnel stated that
they notified CH2M Hill of its error, and the contractor then cited the correct TAFS in the
fourth quarter FY 2010 posting; however, the contractor did not go back and correct the
incorrect TAFS cited in previous quarterly reports. Because action by management
prompted the contractor to meet the intent of the finding, we are not recommending
further corrective action. DoD now has reasonable assurance that the use of Recovery
Act funds was clear and transparent to the public.

Conclusion
Personnel at the 611th CES did not ensure that the three wind turbine projects were
properly planned and supported. As a result, DoD cannot ensure that the three wind
turbine projects are viable, that DUSD (I&E) personnel appropriately selected the
projects for Recovery Act funding, and that Recovery Act funds were appropriately used.

We fully support renewable energy projects; however, executing the Recovery Act
projects at Cape Lisburne, Cape Newenham, and Cape Romanzof LRRSs may not be
compliant with Federal, DoD, and Recovery Act guidance. Without documented support
for the potential investment costs, and energy and non-energy savings on the LCC
analyses, DoD cannot ensure whether the calculations were correct, whether the
discounted payback periods and SIRs met the minimum DoD criteria, and that
DUSD (I&E) personnel appropriately selected the projects for Recovery Act funding.
Although it may be appropriate to use Recovery Act funds for conducting wind studies to
determine the viability of future wind turbine projects at Alaska LRRSs, the projects were
not shovel-ready and may be cost-ineffective. 611th CES personnel should revalidate the
SIRs and payback periods of the projects. DUSD (I&E) should consider the results of the


                                            9
revalidations, results of the wind studies, and potential costs of alternatives considered
such as termination costs, to determine the best course of action for the construction
portion of the wind turbine contract.

Recommendations, Management Comments, and Our
Response
Revised Recommendations
As a result of management comments, we revised Recommendation 2 to include four
subparts. We explain the revisions in our responses to management comments below.

1. We recommend that the Commander, 611th Civil Engineer Squadron, prepare
supporting documentation, including the results of the 1-year wind studies, and
revalidate the discounted payback periods and savings-to-investment ratios on the
Life-Cycle Cost Analysis summaries.

Department of the Air Force Comments
The Assistant Deputy Chief of Staff, Logistics, Installations and Mission Support for the
Headquarters U.S. Air Force, provided comments on behalf of the Department of the Air
Force. She agreed with the Recommendation and stated that they provided the
supporting documentation requested, including the 1-year wind studies and updated LCC
analyses for Cape Romanzof and Cape Lisburne. The Assistant Deputy Chief of Staff,
stated that the revalidation effort resulted in a SIR of 1.15 for Cape Lisburne and a SIR of
1.29 for Cape Romanzof. Additionally, she stated that Cape Newenham has strong wind,
but too much turbulence for a wind turbine and the project will be recommended for
cancellation. Also, attached to her comments were the “35% Design” submittal, June 4,
2010, and cost overrun information for the three wind turbine projects.

Our Response
The comments of the Assistant Deputy Chief of Staff, were partially responsive. The
methodology used by the Air Force in performing the LCC analyses was reasonable. The
updated LCC analyses reflected payback periods of approximately 17 and 15 years for
the wind turbine projects at Cape Lisburne and Cape Romanzof, respectively. However,
we were not able to validate the updated SIR and payback periods provided by the Air
Force because the Air Force did not provide support for the predicted/estimated fuel
consumption numbers (a key component to calculate the estimated gallons of diesel fuel
saved) for the Cape Lisburne and Cape Romanzof LRRSs.

We used the attachments provided by the Assistant Deputy Chief of Staff, to calculate
that the three wind turbine projects have each experienced approximately $1 million in
cost overruns (based on 2012 construction costs) over the DoD approved $4.7 million for
each wind turbine project. During a meeting on July 29, 2011, with Air Force officials to
discuss their comments on the draft report, the Air Force stated that the deadline for
procuring wind turbines in time for 2012 construction to occur is close-at-hand and if
construction is delayed further, construction costs will continue to escalate thus impacting
the SIR and payback periods of the projects even further. The Under Secretary of


                                             10
Defense (Comptroller)/Chief Financial Officer issued two memoranda providing
guidance on the handling of project cost variations, including cost overruns and
cancelling Recovery Act projects. Because the DUSD (I&E) centrally controls ECIP
funding, we address this issue in the added Recommendation 2.d.

We agree with the Air Force’s decision to recommend cancellation of the wind turbine
project at Cape Newenham, but continue to question the cost-effectiveness of the wind
turbine projects at Cape Lisburne and Romanzof. Rather than ask the Air Force for
additional supporting documentation, we will elevate the issues to the DUSD (I&E) in
Recommendation 2.b and 2.c to ensure that the LCC analyses are accurate before
determining the best course of action for the wind turbine projects at Cape Lisburne and
Cape Romanzof.

2. We recommend that the Deputy Under Secretary of Defense (Installations and
Environment):

   a. Cancel the wind turbine project at Cape Newenham,

   b. Work directly with the Air Force to validate the LCC analyses for the wind
turbine projects at Cape Lisburne and Cape Romanzof,

    c. Determine the best course of action for the construction portion of the Cape
Lisburne and Cape Romanzof wind turbine projects, taking into consideration the
results of the savings-to-investment ratio and payback period revalidations, results
of the wind studies, the cost overruns, and other costs of options considered, and

    d. Develop plans to use the savings resulting from the termination of the wind
turbine project at Cape Newenham and develop plans to address cost overruns for
the projects at Cape Lisburne and Romanzof in accordance with Under Secretary of
Defense (Comptroller)/Chief Financial Officer memorandum, “Project Cost
Variations During Execution of American Recovery and Reinvestment Act
Expenditure Plans for Infrastructure Investments,” May 7, 2009, and “Revision to
Policy Regarding Project Cost Variations during execution of American Recovery
and Reinvestment Act Expenditure Plans for Infrastructure Investments,”
January 11, 2010.

Management Comments Required
The DUSD (I&E), did not comment on a draft of this report. We request that the
DUSD (I&E), provide comments on the final report.

Department of the Air Force Comments
Although not required to comment, the Assistant Deputy Chief of Staff, Logistics,
Installations and Mission Support for the Headquarters U. S. Air Force, provided
comments on behalf of the Department of the Air Force. She stated that they will provide
a recommendation to the DUSD (I&E) to continue with construction of the wind turbines




                                           11
at Cape Lisburne and Cape Romanzof but will recommend cancelling construction at
Cape Newenham.

Our Response
We agree with the Air Force’s recommendation to cancel the wind turbine project at
Cape Newenham and added Recommendation 2.a.

Documentation provided by the Air Force in response to Recommendation 1 does not
fully support the Air Force’s recommendation to move forward with the wind turbine
projects at Cape Lisburne and Cape Romanzof. We added Recommendation 2.b to
elevate the issue to the DUSD (I&E).




                                          12
Appendix. Scope and Methodology
We conducted this audit from August 2009 through May 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

The overall objective was to evaluate DoD’s implementation of plans for the Recovery
Act. To accomplish our objective, we audited the planning, funding, initial project
execution, and tracking and reporting of three wind turbine projects at Cape Lisburne
LRRS, Cape Newenham LRRS, and Cape Romanzof LRRS, each valued at $4.7 million.
Specifically, we determined whether:

           •   the selected projects were adequately planned to ensure the appropriate
               use of Recovery Act funds (Planning);
           •   funds were awarded and distributed in a prompt, fair, and reasonable
               manner (Funding);
           •   contracts awarded were transparent, competed, and contained required
               Recovery Act FAR clauses (Initial Project Execution); and
           •   recipients’ use of funds was transparent to the public, and the benefits of
               the funds were clearly, accurately, and timely reported (Tracking and
               Reporting).

We interviewed personnel from the 611th CES, AFCESA, Air Force Recovery Act
Manager, Air Force ECIP Manager, and DUSD (I&E). We toured the Tin City LRRS
where the test site wind turbine is located. We reviewed documentation including the
official contract files and the DD Forms 1391 for project requirements, justification, cost
estimate support, environmental analysis, and historical data that provided costing
support. We reviewed Federal, DoD, and Air Force guidance. Although we determined
whether the contractor reported in accordance with FAR 52.204-11 and reviewed the data
for reasonableness, we did not validate the data reported by the contractor to the
www.recovery.gov Web site at this time.

Use of Computer-Processed Data
We relied on computer-processed data from the FBO Web site, the Federal Procurement
Data System-Next Generation, the LCC program, the Excluded Parties List System, the
Commanders’ Resource Integration System, and the Central Contractor Registration.
FBO is a Government-wide single entry point for Federal Government procurement
opportunities. Federal Procurement Data System-Next Generation is a dynamic, real-
time database in which contracting officers can update data to include new actions,
modifications, and corrections. The LCC provides computational support for the analysis
of capital investments in buildings. The Excluded Parties List System is a Web site that
disseminates information on parties that are excluded from receiving Federal Contracts.
The Commanders’ Resource Integration System is a data warehouse/decision support


                                            13
system, which provides a set of query, analysis, and reporting tools to access data from
multiple financial, logistics, and personnel legacy systems for Air Force personnel. The
Central Contractor Registration is the primary registrant database for Federal
Government contractors. The database validates, stores, and disseminates data in support
of agency acquisition missions. We compared data generated by each system with the
DoD Expenditure Plans, funding authorization documents, project documentation, and
contracting documentation to support the audit conclusions. We determined that the data
were sufficiently reliable for the purposes of our report.

Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division of the DoD Office of Inspector General analyzed all DoD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each. Quantitative Methods and Analysis
Division personnel selected most audit projects and locations using a modified Delphi
technique, which allowed them to quantify the risk based on expert auditor judgment and
other quantitatively developed risk indicators. They used information collected from all
projects to update and improve the risk assessment model. Quantitative Methods and
Analysis Division personnel initially selected 83 projects with the highest risk rankings,
with auditors choosing some additional projects at selected locations. The audit team
selected the three wind turbine projects to provide coverage of the ECIP.

Quantitative Methods and Analysis Division personnel did not use classical statistical
sampling techniques that would permit generalizing results to the total population
because there were too many potential variables with unknown parameters at the
beginning of this analysis. The predictive analytic techniques employed provided a basis
for logical coverage of Recovery Act dollars being expended, but also for types of
projects and types of locations across the Military Services, Defense agencies, State
National Guard units, and public works managed by the U.S. Army Corps of Engineers.

Prior Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                            14
Department of the Air Force Comments





                                 DEPARTMENT OF THE AIR FORCE
                                HEADQUARTERS UNITED STATES AI R FORCE
                                             WASHINGTON DC




      MEMORANDUM FOR DOD INSiiPiiEiiCiiTIliO.RiiGiiEiiN.EiiR.AL
                                                              iII                  :rr:~   0 '11J11
                     ATTN:

      FROM: HQ USAF/A417
            1030 Air Force Pentagon
            Washington, DC 20330-1030

      SUBJECT: ARRA Wind Turbine Projects at Long-Range Radar Sites in Alaska Were Not
               Adequately Planned (project No. D2009-DOOOLF-024S.003)

             We concur with comments on both recommendations in the DoD Inspector General Draft
      Report on the wind turbine construction al Cape Lisburne, Cape ewenham, and Cape
      Romanzof, Alaska. Specific management comments are attached.




                                   Click to add JPEG file
                                                      ~~-
                                                       PATRICIA M. YO~, SES<S
                                                       Asst DCSlLogistics, Installations &
                                                       Mi ssion Support




                                                                    15
                                                                                                   Final Report 

                                                                                                    Reference




                       DEPARTMENT OF THE AIR FORCE
                       HEADQUARTERS UNITED STATES AIR FORCE
                                    WASHINGTON DC




                      Oflice of the Inspector General, 000
ARRA Wind Turbine Project,> at Long-Range Radar Sites in Alaska Were Not Adequately
                                       Plalm ed
                        (Project No. D2009-DOOOLF-0245.(03)


   DoD/iG Recommendation 1: "We recommend that the Commander, 6 1lth Civil
   Engineer SqU<ldron prepare supporting docume ntatio n. inc luding the results of the I-year
   wi nd studi es. and re vali date tl,c di scounted payback periods and savings-la-investment
   ratios on the Life-Cycl e Cost Analysis summaries ."

   AF/A4n Comments:

    I. Concur.
                                                                                                 Supporting
       I' ACAF/A 7 has attached the infonnation prepared by the Commander, 6 1 IIh C ivil        documentation
       Engineer Squadron and provided the requested supporting documentation. including          omitted because of
       the Olle-year wind studies and a reval idated Life-Cycl e Cost Analys is. ll1is           length. Copies will
                         Click to add JPEG file
       documentati on shows that Cape Lisbume and Cape Romanzof arc valid projects with
                                                                                                 be provided upon
       savings-to- investment ratios of 1.15 and 1.29 respecti vely. Cape Ncwenhal11 has
       strong wind, bUI 100 much turbulence for a wind turbine and will be crulce llcd.          request.

   l>oDflG Recol1unend.ltiol1 2: "We also recommend that the Deputy nder Secretary of            Recommendation
   Defense (lnstallati ons and Environment) determine the best course of action for the          revised to include
   constnlction portion of the wind turb ine contract., taking into considerati on the
                                                                                                 four subparts.
   revalidation and wind study results, and costs of other options cOllS idered."


   AF/A 417 Comments;

   2. Concur. AF/A7Cwill:

       Provide our recommendation to continue with cOIlStniction of wind turbines at C"lpe
       Lisbume and Cape Romanzof and 10 cancel conslnlction at Cape Newenham to the
       Dep uty Under Secretary of Defense ( Inslalhlti ons and Environment). Status: Open;
       Estimated Completion Date: 24 Jul II




                                                          16
BLCCReporl


  NIST BLCC 5.3-10: ECIP Repo,"t

  C on~hl~n l      .... lIh Federa l Ufe C)'dt CO:il o\'itlhodolotY and Procmurcl, 10      C ~·R.   ParI 436, Subpar! A


  T ile LCC calcuJ:lUons are based on th e F!I\IP (liscou nt NIle; :lnd ('uergy l)floe escalall on rales npd ated on AI)f1l 1, 1010.



   Loa tlon :                                                                                                                        Alaska Dbcount                           3%
                                                                                                                                              R~te :

   ProJoct
                                                                                                                 Cilpe Lisbunle Wind Project Ana lyif:
   Thlt':
   Base                                                                                                                                       Prt'par.tllon   The hUlll 08:27: 12
   Dale:                                                                                                                        JLa1e 1, 2011 Datt':                   nST 2011
                                                                                                                                              Economic
   BOD:                                                                                                                     October 1, 2012 Lift';              20 years 0 months

                                           C:\U~\colton , walter\DOClunenISWQSka\6II \\vind         Generation Projecl$\3-Capes Wind
                                                                      Project\ BLCCs\[)ocwnentationVwlC II Tasker recalc·LisOOme.xml


  1 . lnn~ment



      Construction CO.!o1                               S5,651 ,299

      S IO I!                                                         SO

      D('~gn       Cost                                               SO

      To tal    Co~                                     S5,651 ,299

      Sah'age Va lue of Existing Equipment                             Click to add JPEG file
                                                                      SO
      Publk Utility Company                                           SO
      To lallm1!.!o1ment                                S5,651 ,299



  2. Enl'r gy an d W al t'r Sa,'lngs (+) or Colt (_)

  Ba!r DatcS:l\'lnAA unit rosh:, & dl5C(lUlllcd s:.n1 ngs


                                        Unit Cm.1 UElge S:n 1ngl A nnu:.1 S:nlngs DI5C(Iunt F:.ctor Discounted S:n 1ngl
    DI~1111:ll c   . ' ut'l 0 11 (# 1, tn) S39,54149   8,341.2 MBlu                   S330,060               19,5 13          S6,440,577
   .: Dl'rgy Subtotal                                  8,341.2 MBlu                   S330,060                                $6,440,517

   Watl'r Subtotal                                           0.0 Mgal                      so                                           so
   Tola l                                                                             S330.060                                $6,440.517


  3. Non. Energy Savings (+) or Co ~1 H

                          Ilem                    S:l\i n gIiC o ~1    OceurrenCf D\s.oounl .':lctor I)isrounl('d Sa\'lngJICo.!o1
   A nnua lly      R~urring                               $5,653           AlUlllal                 13.977                   579,014

   N on-Annually Re<:urrlng

   N on -Ann ually Rec urring Su btotal                         so                                                                 so
   Tota l                                                 $5,653                                                             579,014




fil e:IIICV. .JWind%20GerK:ration%20Prqjectsl3 .Capes%20\vind%10ProjectlBLCCslIUll~-;'10 II '~OT asker%2Ore·calcuiation· LisbUllle.hlml16l11                       ° II 8:36:41 AM J




                                                                                                                   17
BLCC Reporl

   4. Flrd yr.lr S:1\1ng.r                               $335,7 14

   S. Simple I' ayhad. . Period (In yl".Iu)                  16.83 (IOIal illveslmelll/lirst.year savings)

   6. ToC:11 DIKOunlt'd O pt'r'.Ilion:11 S:I\·lng.'l'   $6,519,591

   7. S:w ln3! 10   In\·t'~ nlt'nl   Ratio (SIR)              1.15 (IOI al discounted operational s.wings./lotaJ invt$tment)

   S. Adju.d rd Intl'rnal R:al eO rRt'lurn (A IRR)          3.7,1% (l +d) - SIR,,( lIn). l ; d-diSC()l1nt rate, II-years in study peri od




                                                            Click to add JPEG file




fil e:IIICV. .JWind%20GerK:ratiOll%20Prqjectsl3 .Capes%20\vind%20ProjectlBLCCslIUll~-;'20 11 '~OT asker% 2Ore·calcuiatioo· LisbUllle.hlmlj6l21 0 II 8:36: 41 AM J




                                                                                                        18
BLCCReporl


  NIST BLCC 5.3-10: ECIP Repo,"t

  C on~hl~n l     .... lIh Federal Ufe C )'dt CO:il o\'itlhodolotY and Procmurcl. 10     C ~·R.   ParI 436. Subpar! A


  Tile LCC calcuJ:lUons are based on th e F!I\IP (liscount NIle; :lnd ('uergy l)floe escalall on ra les npd ated on AI)f1l 1, 1010.



   Loa tlon :                                                                                                                        Alaska Discount                     3%
                                                                                                                                            Rat e:

   ProJoct                                                                                                   Cape Ron\,'u\Zof Wind Projl!(t An3lyst:
   Thle:
   Base                                                                                                                      hUle 1, 20 11 Prtparnllon   The hut 21 08:29:47
   Dale:                                                                                                                                    Dale:                 nST 20 11
                                                                                                                                          Etonomk
   BOD:                                                                                                                   October 1, 2012 Lire:            20 years 0 months

                                         C:\Users\cOIIOft.walter\Doc:wuenISWaska\6 11\Wind Genemtion Projl!(tS\3-Capes Wind
                                                            Project\BLCCs\Docwm:mation\June II Tasker recruc-RomanzoCxrnl


  1 . lnn~ment



     Construction CO.!o1                              S5,784,O15
     S IOI!                                                         SO

     De~gn        Cost                                              SO
     Total    Co~                                     S5,784,015
     Sah'age Va lue of Existi ng Equipment                           Click to add JPEG file
                                                                    SO
     Publk Utility Company                                          SO

     Tolallnu.!o1menl                                 S5,i84,015


  2. Ener gy an d W al t'r Sa"lngs (+) or Colt (_)


  Ba!r Datc S:l\'lnAA unit rosh:, & dl5C(lUlllcd s:.n1 ngs


                                      Unit Cm.1 UElge S:n 1ngl Annu:.1 S:nln gs DI5C(Iu nl F:.ctor Discounted S:n 1ngl

   DI~1111:ll c   . ' uel 0 11 (# 1, tn) S41.69742   9,106.0 MBlu                   S379,698               19.5 13         S1,409, 170
   .: lIl'rgy Subtotal                               9,106.0MBlu                    $379,698                               S1,409, 170

   Watl'r Subtotal                                         0.0 Mgal                      so                                          so
   Tota l                                                                           $379,698                               57,409, 170



  3. Non_Energy Savings (+) or Co~1 H

                         Item                   S:l\i n gIiC o ~1    OceurrenCf Dls.oounl .·actor \)isrounl('d Sa\'ln gJICo.!o1

   A nnua lly     R~urTing                              $5,653           AlUlllal                 13.917                   579,014

   Non-Annually Re<:urrlng

   Non -Ann ually Rec urring Subtotal                         so                                                                so
   Tula l                                               $5,653                                                             579,014




fil e:IIICV... OGenemtion%20ProjectY3-Capes%20Wind%20ProjectlnLCCslJune%20 II %20Taskel%2Ore-ca1culation'l.20-'1.20Rolllanzo[ htmlj6l21 120 11 8:35:51 AM J




                                                                                                                 19
BLCC Reporl

   4. Flrd yr.lr S:1\1ng.r                               $385,351
   S. Simple I' ayhad. . Period (In yl".Iu)                  15.01 (IOIal illveslmelll/lirst.year savings)

   6. ToC:11 DIKOunlt'd O pt'r'.Illon:11 S:I\·lng.'l'   $7,488,184
   7. S:Wln3! 10   In\·t'~ nlt'nl   Ratio (SI R)              1.29 (Iotal discounted operational s.wings./lotaJ invt$tment)

   S. Adju.d rd Inll'rnal R:al eO rRt'lurn (AIRR)           4.3'1% (l +d) - SIR,,(lIn).l ; d-diSC()l1nt rate, II-years in study peri od




                                                            Click to add JPEG file




fil e:IIICV... OGenemtioo%20ProjectY3-Capes%20Wind%20ProjectlnLCCslJune%20 I I %20TasKel%2Ore-ca!culatioo'l.20.'1.20Romanzo[html[612 l 120 11 8:35:57 AM J




                                                                                                       20
